                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 112080061                                                                    Page 1 of 1



         We were contacted by an investigator from another federal agency 1 about proposals one of its
                    2
         employees had submitted to NSF. We determined that an employee had submitted three
         proposals to NSF each containing curriculum vita which omitted his full-time federal
         employment. 3 Two ofthe awards were funded. 4

         NSF initially suspended the award at our recommendation5 pending completion of our
         investigation. Dual investigations resulted in his termination from federal employment for
         working on the NSF projects during his federal duty hours.

         Ultimately, we recommended NSF terminate the ongoing NSF award. 6 Because the PI hid his
         status as a federal employee, NSF was not able to properly review his proposal or ascertain
         whether he was able to perform as a PI given his full-time work for the government. The
         award's termination resulted in more than $57,000 being put to better use.

         This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
